                          AUDIT OF SELECTED ASPECTS OF
                          THE SERVICE CORPS OF RETIRED
                              EXECUTIVES PROGRAM

                             AUDIT REPORT NUMBER 3-23

                                      APRIL 11, 2003




This report may contain proprietary information subject to the provisions of 18 USC 1905 and
must not be released to the public or another agency without permission of the office of
Inspector General.
circulars, including A-110 and A-122, as well as requirements imposed by SBA. Accordingly,
SCORE’s operations and activities must abide by requirements governing the accountability and
allowability of costs charged to the Federal cooperative agreement. SBA is responsible for monitoring
and overseeing the ongoing SCORE operations for effective and efficient use of Federal funds.

         The SCORE program received funding of $3.75 million in Fiscal Year (FY) 2001 and $5.0
million in FY 2002 from SBA’s salaries and expenses lump sum appropriation. Each year there is a
non-statutory earmark in the conference report for SCORE that specifies the desired amount of funding.


                                          Objectives and Scope

         The objectives of our audit were to (1) assess controls put in place by management to ensure
appropriate use of Federal funds, (2) review SBA’s role in monitoring the financial and performance
aspects of the cooperative agreement award, (3) determine the scope and extent of SCORE’s
independent auditor’s testing relative to its single audit, and (4) assess SCORE’s FY 2002 proposed
salaries for its three highest paid positions to determine if the proposed salaries were allowable and
reasonable.

        To accomplish the objectives, we interviewed officials from SBA and NSO and reviewed FY
2001 documentation related to management controls, financial and program records, and the
independent auditor’s working papers. Additionally, we reviewed SCORE’s past and present
compensation policies and practices and independent consultant data provided by SCORE to support
their proposed FY 2002 salary levels. Further, we reviewed applicable laws, regulations, cooperative
agreement provisions and SBA’s and SCORE’s internal policies and procedures.

       The audit was conducted from January 2002 to October 2002 in accordance with Government
Auditing Standards.


                                          Summary of Results

         NSO had an internal control structure in place to ensure appropriate use of Federal funds,
except that NSO did not (1) report program income earned by its chapters on SBA Form 269,
“Financial Status Report,” as required by the terms and conditions of the Notice of Award, and (2)
include its chapters’ financial activities in its financial statements in accordance with financial accounting
standards. Additionally, we determined that SBA’s monitoring of the performance and financial aspects
of the award should be strengthened. We did not determine whether the established salary levels for the
three highest paid salaried positions for FY 2002 were allowable and reasonable because we found that
SCORE’s statutory authority does not explicitly address SBA providing funding to SCORE for its paid
positions. Additionally, SBA has not developed supplemental policies to govern the creation and
compensation of administrative positions.

Finding 1: NSO Did Not Report Chapter Program Income to SBA

       NSO did not report program income earned by its chapters in FY 2001 to SBA. The Notice
of Award required NSO to submit quarterly financial status reports to SBA on Standard Form 269,
“Financial Status Report,” which contains an area for the recipient to report program income. Program


                                                      2
income as defined by OMB Circular A-110, “Uniform Administrative Requirements for Grants
and Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations,” Subpart A.2 (x) includes income earned by the recipient that is directly generated by a
supported activity or earned as a result of the award and includes, but is not limited to, income from fees
for services performed.

        For FY 2001, SCORE’s chapters conducted approximately 5,600 workshops and seminars
which SCORE’s records reflect generated $1.08 million in gross income. This income, however, was
not reported to SBA as program income during FY 2001. As a result, SBA was not aware of the
amount of program income being generated by SCORE’s chapters and did not have this information
available when making funding decisions during the year. To illustrate, SCORE requested and SBA
approved $50,000 in additional funding on two separate occasions during FY 2001 to cover chapter
administrative expenses. SBA approved this additional funding without full knowledge of SCORE’s
complete financial resources.

         SCORE representatives stated they were unaware that chapter program income should be
reported. They also stated, however, that all chapters are required to submit annual reports to NSO
detailing their income and expenses so the information could easily be provided to SBA. As a result of
our work, SBA became aware of this issue and emphasized in the FY 2003 cooperative agreement
award that all program income is required to be reported to SBA, including but not limited to,
fundraising and service fees. We consider SBA actions responsive to the issue and therefore, are not
making any recommendations regarding program income in this report.


SCORE’s Response:

        SCORE acknowledged that they did not report chapter revenue as program income on the
quarterly financial reports submitted to SBA and agreed to report this revenue to SBA on an annual
basis within 90 days of the end of a fiscal year. SCORE’s response is included in its entirety as
Attachment 1.


SBA Management’s Response:

         The Acting Associate Administrator for Business and Community Initiatives (Acting AA/OBCI)
stated that appropriate changes have been made in the FY 2003 cooperative agreement requiring
SCORE to report program income within 90 days of the end of a fiscal year. The Acting AA/OBCI’s
response is included in its entirety as Attachment 2.


        The Director of OPGM stated that the Office of Administration reviewed the draft audit report
and did not have any comments.


Office of Inspector General’s Evaluation of Responses:

         The comments provided by SCORE and the Acting AA/OBCI indicate agreement with the
finding. However, program income reporting requirements should align with financial status reporting


                                                    3
requirements. Accordingly, if financial status reports are required quarterly per the Notice of Award,
chapter revenue should be reported quarterly in the appropriate area of SBA Form 269, “Financial
Status Report.”


Finding 2: NSO’s FY 01 Financial Statements Excluded Complete Chapter Related
           Financial Information

         SCORE’s FY 2001 financial statements prepared by NSO did not include complete chapter
related financial information. As a result, SCORE’s financial statements (1) were incomplete which
affected their reliability and relevancy, (2) did not contain complete information for SBA to assess
program performance, and (3) provided incomplete financial information for the purpose of assessing
SCORE’s compliance with applicable requirements under OMB Circular A-133, “Audits of States,
Local Governments and Non-Profit Organizations.”

SCORE’s FY 2001 Financial Statements Were Incomplete Which Affected Their Reliability
and Relevancy

        Although NSO’s Chief Executive Officer (CEO) recently provided a written certification to
SBA acknowledging that NSO and its chapters are one legal entity, the chapters’ financial activities
were not included in SCORE’s FY 2001 financial statements. The Single Audit Act of 1984, as
amended, and OMB Circular A-133 require that the audit of NSO’s activities be organization wide. In
addition, the Financial Accounting Standards Board (FASB) requires financial statements of an
organization to be complete.

        Completeness also affects the reliability and relevancy of financial statements. FASB Concept
No 2.“Qualitative Characteristics of Accounting Information,” states in order for financial
statements to be considered reliable they must be complete in the sense that nothing material is left out
of the information that may be necessary to insure it validly represents the underlying events and
conditions of the organization. Completeness also affects financial statements relevance as the relevance
of information is adversely affected if an important piece of information is omitted. SCORE’s chapters
are a material component of SCORE’s operation and therefore, omission of related financial information
made the financial statements incomplete and affected their reliability and relevancy.



Incomplete Financial Statements Limited SBA’s Ability to Assess Program Performance

        Incomplete information in SCORE’s FY 2001 financial statements impacted SBA’s ability to
assess program performance. As described in FASB Concept No. 4 “Objectives of Financial
Reporting by Nonbusiness Organizations,” the general objectives of financial reporting for
nonbusiness (including nonprofit) organizations are to provide information useful for resource providers
to:

        •   make rational decisions about resource allocation decisions;
        •   assess an organization’s services and ability to continue to provide those services;
        •   assess management stewardship and performance; and
        •   understand an organization’s economic resources, obligations, net resources and the effects


                                                    4
            of transactions, events, and circumstances that change those resources and interests in them.

        Accordingly, because information related to a significant portion of SCORE’s operation was
omitted from its FY 2001 financial statements, SBA was not receiving complete data to make informed
decisions regarding SCORE’s financial resources. To illustrate, SCORE requested and received
$50,000 in additional funding on two separate occasions from SBA during FY 2001 to help defer
administrative expenses of its chapters, although NSO’s records showed an aggregate balance of
approximately $2.3 million at the end of FY 2001 in the chapters’ accounts. In the absence of financial
information about SCORE’s chapters’ economic
resources and obligations, SBA’s ability to understand why additional funding was needed and make an
informed budget decision was hindered.

SCORE Provided Incomplete Financial Information for Purposes of the Single Audit

         Annually, SCORE is subject to a single audit in accordance with OMB Circular A-133. As
part of that audit, the independent auditor assesses SCORE’s compliance with laws, regulations, and
requirements of contracts and grants applicable to its major Federal programs. Additionally, the auditor
assesses the organization’s internal control over compliance that could have a direct and material effect
on a major Federal program.

        An auditee has certain responsibilities with respect to the single audit that are outlined in OMB
Circular A-133, Section 300. Those responsibilities include the responsibility to prepare appropriate
financial statements and ensure the audit was performed as required. SCORE did not fulfill those
responsibilities because it excluded pertinent chapter financial information from its FY 2001 financial
statements that were provided to the independent auditor who conducted the single audit. As a result,
the single audit did not cover the entire operations of the auditee and SBA cannot be assured that
SCORE is in compliance with applicable requirements.




Recommendation:

2A.     We recommend that the Acting AA/OBCI, in conjunction with the Assistant Administrator for
        Administration, work with NSO to ensure compliance with FASB reporting requirements.


SCORE’s Response:

        SCORE stated that a legal opinion provided by their attorney supports the decision not to
include chapter finances in the audit process. SCORE also stated that given this opinion and the
estimated additional audit cost of roughly $150,000 per year to appropriately audit 389 chapters, they
believe SCORE should not be required to include an audit of its chapters in its annual paid audit.
Further, SCORE believes that providing annual information to SBA on chapter revenue should
overcome the concern raised related to reliability, relevancy and the ability of SBA to assess program
performance.


                                                    5
SBA Management’s Response:

       The Acting AA/OBCI concurred with the recommendation subject to certain changes being
made. The proposed changes include a suggestion that the recommendation be jointly addressed to the
Acting AA/OBCI and the Assistant Administrator for Administration.


Office of Inspector General’s Evaluation of Responses:

       SCORE’s response indicates disagreement with finding 2 and the Acting AA/OBCI’s
comments indicate agreement with finding 2. With respect to the Acting AA/OBCI’s suggested
changes to the recommendation, we considered the changes and revised the recommendation as
appropriate.

        With respect to the inclusion of chapter related financial information in SCORE’s financial
statements, we continue to support our position on this matter and believe our recommendation is valid.
 SCORE’s attorney’s application of Statement of Position (SOP) 94-3 in this matter and resulting
conclusion that the SCORE Association is not required to consolidate the chapters in the Association’s
financial statements, appears to be flawed. SOP 94-3 interprets FASB No. 117, Financial
Statements of Not-for-Profit Organizations. The SOP states that it applies only to those situations
when there are separate and different not-for-profit organizations that are related to one or more other
not-for-profits in numerous ways including control and economic interest. In this case, extensive
discussion of these factors becomes irrelevant, because as recently as October 25, 2002, SCORE’s
CEO certified that based on previous legal advice from its attorney “it is clear that SCORE chapters are
not independent legal entities based on their unit membership in the SCORE Association.” Since the
chapters are not independent legal entities, they cannot be “separate and different not-for profit
organizations.” Therefore, it does not appear that SOP 94-3 applies in this situation.
        With respect to the cost and administration burdens expressed related to auditing 389 chapters,
we would agree that it is not cost effective or practical in many instances to collect and examine the
entire population of data available. Instead, it is often necessary to draw a sample of information from
the population that can be tested to provide the auditor reasonable assurance that the chapter financial
information and related assertions in the financial statements are not materially misstated.


Finding 3: SBA’s Monitoring of SCORE Should be Strengthened

         SBA’s monitoring of SCORE should be strengthened by ensuring that financial data is measured
against actual performance results. For example, SBA could have discovered that SCORE was not
reporting program income earned by its chapters (see Finding 1) had it compared the financial and
performance information provided by SCORE. SCORE consistently reported no program income on
its financial status reports while its performance reports emphasized the number of workshop attendees
during the reporting period for which fees are customarily charged. Monitoring is the process by which
the financial and performance aspects of a cooperative agreement are continuously assessed to ensure
federal funds are properly spent and program goals and objectives are met. Monitoring is a cooperative
function between the grants management officer from OPGM and the technical representative from the
responsible program office. It includes the review of audits, financial status reports, performance


                                                   6
reports, and other written documents.

         SBA has a process in place whereby OPGM designates a technical representative to monitor
the award to assure compliance with the technical requirements of the cooperative agreement including
the review and approval of a recipient’s progress and financial reports, and other items required for
approval. With respect to SCORE’s award, we found that, in practice, the designated technical
representative focused on the performance aspects (e.g. ensuring counseling and training goals were
met) of the cooperative agreement award and performed only a cursory review of the financial reports
and payment requests before approving and forwarding them to OPGM. The program officials stated
this occurred because of a verbal agreement with OPGM that they would handle the financial aspects of
the award, while the program office handled the performance aspects of the award. OPGM officials
did not recall such an agreement and stated that the program office’s responsibilities were clearly
outlined in the technical representative’s appointment letter.

         OMB Circular A-110 encourages agencies whenever appropriate and when the output of
programs or projects can be readily quantified, to relate quantitative data to cost data for comparison of
unit costs. Accordingly, in order to accomplish this objective as well as the general objectives of
monitoring cited previously, SBA should more clearly relate financial information contained in financial
reports to the performance data in performance reports.




Recommendation:

3A.     We recommend that the Assistant Administrator for Administration, in conjunction with the
        Acting AA/OBCI, ensure there is a clear understanding of the role of each office in monitoring
        the SCORE cooperative agreement award and design monitoring procedures that integrate
        reviews of performance and financial data.


SBA Managements’ Response:

         The Director of OPGM stated that the Office of Administration reviewed the draft audit report
and did not have any comments. The Acting AA/OBCI concurred with the recommendation and
indicated that the respective program manager and grant office manager have been working more
closely together on various SCORE issues. Additionally, the Acting AA/OBCI stated that the program
manager received grants training in FY 2001 and will receive Contract Officers Technical
Representative training.


Office of Inspector General’s Evaluation of Response:

        The comments provided by the Director of OPGM are not responsive to the recommendation
and Office of Administration actions to address the finding and recommendation will be evaluated during
the audit resolution process. The Acting AA/OBCI’s comments are responsive to the finding and
recommendation.


                                                    7
Finding 4: SBA Does Not Have Express Authority to Provide Funding for Paid SCORE
           Administrative Positions

        SBA provided funding for a SCORE paid headquarters staff for several years although the
authorizing legislation did not address SBA providing funding to SCORE for its paid positions.
Furthermore, SBA did not have supplemental policies governing the creation and compensation of paid
administrative positions for the SCORE program. As a result, (1) it is unclear if Congress intended
Federal funds to be used for this purpose, and (2) there is a lack of clear agency guidance to determine
the allowability and reasonableness of SCORE’s compensation policies and practices for the paid
administrative positions.

         Per discussion with SCORE’s CEO, SBA has provided funding to SCORE for paid positions
for approximately 25 years. The first paid positions were clerical in nature and over time several new
paid positions were added. SBA historically approved funding for the non-volunteer positions based on
what they believed was reasonable compensation. In FY 2002, however, SBA no longer believed that
the proposed salaries for SCORE’s three highest paid positions were reasonable and denied SCORE’s
proposed salary levels for these positions. OPGM funded the positions at FY 2001 levels and
requested that the Office of Inspector General determine the reasonableness of the proposed salaries.
SCORE’s approved compensation budget for FY 2002 was $982,300, which comprised twenty
percent of SCORE’s overall budget. This amount was provided to pay the salary and fringe benefits for
thirteen full-time and one part-time
position including a CEO, Vice President of Finance and Administration, and Vice President of
Corporate Relations.

         Section 8(b)(1)(a) of the Small Business Act (The Act) states that SBA is authorized to
establish, conduct, and publicize, and to recruit, select, and train volunteers for volunteer programs
including SCORE. The Act further states that the Administration may maintain at its headquarters and
pay the expenses of a team of volunteers subject to the conditions and limitations as the Administration
deems appropriate. Additionally, language in the authorizing legislation states that SBA will be
responsible for providing clerical and stenographic services, publicizing the availability of the program,
and maintaining a team of volunteers at headquarters to assist in the administration of the program.

         OMB Circular A-122, Section 7(c), states that compensation is considered reasonable for an
organization predominately engaged in federally-sponsored activities to the extent that it is comparable
to that paid for similar work in the labor markets in which the organization competes for the kind of
employees involved. SBA’s internal policies and procedures do not address salary reasonableness.

         Based on the foregoing, the legislation does not address SBA providing funding to SCORE for
its paid positions although the program’s operations have evolved to include a paid executive and
administrative staff which SBA has funded for several years. In addition, it is difficult to apply OMB
Circular A-122 to a unique organization such as SCORE, and as a result, the criteria could be
interpreted and applied differently by different users. SBA also has not developed its own internal
guidance to clarify how SCORE non-volunteer positions are to be compensated. Therefore, there is no
clear agency guidance to assist OPGM in determining the allowability and reasonableness of SCORE’s
proposed compensation amounts each year. Due to the uncertainty of the authorizing legislation,
ambiguity of applicable OMB criteria, and lack of internal agency guidance, we did not determine


                                                     8
whether the FY 2002 proposed salary levels for the three highest paid salaried positions were allowable
and reasonable.


Recommendation:

4A.     We recommend that the Acting AA/OBCI determine the source of authority that permits SBA
        to provide funding for NSO paid staff. If SBA is authorized to pay a non-volunteer staff, then
        the Acting AA/OBCI, in conjunction with the Assistant Administrator for Administration, should
        develop and implement an appropriate compensation policy and limits for such staff. If SBA is
        not authorized to pay a non-volunteer staff, then SBA should work with SCORE to seek a
        legislative solution that would authorize SBA to pay a non-volunteer NSO staff and include
        compensation limits.




SCORE’s Response:

        SCORE stated that while express authority to provide funding for paid SCORE administrative
positions is not specifically mentioned in legislation, they believe Congress is completely aware of the
use of appropriated funds for this purpose and is supportive. In addition, SCORE stated that they had
met with the appropriate legislators and committee staff to propose amendments to the Small Business
Act that would clarify this matter.


SBA Management’s Response:

         The Acting AA/OBCI concurred with the recommendation subject to certain changes being
made. The proposed changes included a suggestion that the recommendation be jointly addressed to
the Acting AA/OBCI and the Assistant Administrator for Administration. The Acting AA/OBCI also
commented that the evolution of the SCORE program had outpaced its enacting legislation and stated
that the program office would work with SCORE to attempt a solution to update legislation to reflect
changes in the program and current policies.


Office of Inspector General’s Evaluation of Responses:

       SCORE’s and the Acting AA/OBCI’s comments indicate agreement with the finding and
recommendation. With respect to the Acting AA/OBCI’s suggested changes to the recommendation,
we considered the changes and revised the recommendation as appropriate.



                                              ***

                                                    9
        The findings included in this report are the conclusions of the Office of Inspector General’s
Auditing Division. The findings and recommendations are subject to review, management
decision, and corrective action by your office in accordance with existing Agency procedures
for audit follow-up and resolution.

        Please provide us your management decision for each recommendation within 80 days. Your
management decisions should be recorded on the attached SBA Forms 1824, “Recommendation
Action Sheet,” and show either your proposed corrective action and target date for completion, or
explanation of your disagreement with our recommendations.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Program Group at (202) 205-7577.

Attachments




                                                  10
                                                                                                                          Attachment 3



                                                  REPORT DISTRIBUTION

Recipient                                                                                                     No. of Copies

Associate Deputy Administrator for Entrepreneurial Development ................................1

Associate Deputy Administrator for Management and Administration............................1

General Counsel...........................................................................................................3

General Accounting Office............................................................................................1

Office of the Chief Financial Officer
Attention: Jeff Brown...................................................................................................1
